         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Lacks Internal Controls to
       Prevent Misuse of Emergency
       Drinking Water Facilities
       Report No. 11-P-0001

       October 12, 2010
Report Contributors:                              Stacey Bond
                                                  Ira Brass
                                                  Allison Dutton
                                                  Dan Engelberg
                                                  Danielle Tesch




Abbreviations

ASDWA          Association of State Drinking Water Administrators
CWS            Community Water System
EPA            U.S. Environmental Protection Agency
Illinois EPA   Illinois Environmental Protection Agency
OGWDW          Office of Ground Water and Drinking Water
PWS            Public Water System
SDWA           Safe Drinking Water Act
SDWIS/FED      Safe Drinking Water Information System/Federal Version
SDWIS/State    Safe Drinking Water Information System/State Version


Cover photo:     Glass of drinking water from a faucet. (EPA photo)
                        U.S. Environmental Protection Agency 	                                                 11-P-0001
                                                                                                         October 12, 2010
                        Office of Inspector General


                        At a Glance
                                                                               Catalyst for Improving the Environment


Why We Did This Review	             EPA Lacks Internal Controls to Prevent Misuse
We conducted this evaluation
                                    of Emergency Drinking Water Facilities
to assess the ability of the U.S.    What We Found
Environmental Protection
Agency (EPA) and States to          EPA cannot accurately assess the risk of public water systems delivering
ensure community water              contaminated drinking water from emergency facilities because of limitations in
systems do not distribute           Safe Drinking Water Information System (SDWIS) data management. EPA and
water from contaminated             State officials we interviewed said they were unaware of instances similar to the
wells to their customers in         Illinois situation. However, they also stated that they currently have no way to
violation of the Safe Drinking      know whether an emergency facility had been turned on without notice. There is
Water Act (SDWA).                   no federal regulatory requirement for EPA or States to oversee or monitor
                                    emergency facilities. As a result, neither EPA nor the States know the amount of
Background                          risk that public water system customers may face from misuse of water from
                                    emergency facilities.
SDWA regulates the nation’s
public drinking water supply.       EPA and the States do not have common definitions or understandings of what
Approximately 6,700 public          constitutes an emergency facility, and there is no common understanding of when
water systems have at least         and how emergency facilities may be used, especially with regard to drinking
one water source designated         water. States rely on water systems to self-report when they use these emergency
for emergency use. In 2008,         facilities. However, that system is voluntary, based on trust rather than a
the Illinois Environmental          verifiable control. Consequently, EPA cannot accurately assess the risk faced by
Protection Agency discovered        those served by water systems with emergency facilities.
that one of its public water
systems supplemented                 What We Recommend
purchased surface water with
contaminated water from an          We recommend that the Assistant Administrator for Water develop standard
emergency facility without          definitions for the five facility availability codes, develop standard operating
notifying the State agency.         procedures to assist the States with entering data into SDWIS/State databases, and
                                    determine whether additional fields are needed in the SDWIS/Federal Version to
                                    improve the oversight of emergency facilities. We further recommend that the
                                    Assistant Administrator for Water assess the risk associated with the unauthorized
                                    use of emergency facilities and, if necessary, develop controls to mitigate that risk.
For further information,
contact our Office of               The Agency neither agreed nor disagreed with our recommendations. EPA
Congressional, Public Affairs       acknowledged the concerns raised in this report. To improve oversight of
and Management at
(202) 566-2391.                     emergency facilities, EPA has opened a dialogue with the Association of State
                                    Drinking Water Administrators about the reported data issues and will request that
To view the full report,            the EPA-State Data Technical Advisory Committee review SDWIS/Federal
click on the following link:        Version data fields. EPA stressed the challenges associated with assessing health
www.epa.gov/oig/reports/2011/
20101012-11-P-0001.pdf
                                    risk from emergency facilities, since risk assumes exposure to a contaminant. We
                                    consider these recommendations to be open.
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL



                                         October 12, 2010

MEMORANDUM

SUBJECT:               EPA Lacks Internal Controls to Prevent Misuse of
                       Emergency Drinking Water Facilities
                       Report No. 11-P-0001


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Peter S. Silva
                       Assistant Administrator for Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $517,867.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe PDF
file that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0832 or najjum.wade@epa.gov, or Dan Engelberg at (202) 566-0830 or
engelberg.dan@epa.gov.
EPA Lacks Internal Controls to Prevent                                                                                     11-P-0001
Misuse of Emergency Drinking Water Facilities




                                   Table of Contents 


Chapters 

   1	    Introduction ........................................................................................................      1         


                 Purpose .......................................................................................................    1             

                 Background .................................................................................................       1             

                 Noteworthy Achievements...........................................................................                 4             

                 Scope and Methodology..............................................................................                4             


   2	    EPA Lacks Data to Assess the Risk from Emergency Facility

         Water Usage .......................................................................................................        6         


                 Consecutive and/or Small Systems More Vulnerable .................................                                 6

                 Risk Assessment of Emergency Facilities Precluded by Data

                        Management Process......................................................................                    6             

                 EPA and States Do Not Know if Emergency Facilities Are Used 

                        Without Notification..........................................................................              9             

                 Conclusion...................................................................................................     10             

                 Recommendations ......................................................................................            11             

                 Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                         13     




Appendices 

   A     Distribution of PWSs with Emergency Facilities.............................................                               14     


   B     Site Visits to PWSs with Emergency Facilities................................................                             15     


   C     Agency Response ..............................................................................................            17     


   D     Distribution .........................................................................................................    19     

                                                                                    11-P-0001 





                                Chapter 1

                                 Introduction
Purpose
          We conducted this review to assess the U.S. Environmental Protection Agency’s
          (EPA’s) oversight of public water system (PWS) wells with drinking water
          considered unsafe for human consumption. This review was in response to the
          recent discovery that a local community water system (CWS) in Illinois
          distributed to its customers drinking water from a known contaminated well that
          should have been removed from the distribution system and properly closed. We
          sought to answer the following question: How do EPA and States ensure CWSs
          do not distribute water from contaminated wells to their customers?

Background
          In 1974, Congress passed the Safe Drinking Water Act (SDWA) to protect public
          health through regulation of the nation’s public drinking water supply. The 1996
          SDWA amendments enhanced existing law by recognizing source water
          protection, operator training, funding for water system improvements, and public
          information as important components of safe drinking water.

          SDWA authorizes EPA to set national health-based standards to protect the public
          against naturally occurring and manmade contaminants that may be found in
          drinking water. EPA’s Office of Ground Water and Drinking Water (OGWDW),
          EPA regional offices, States, and water systems work together to ensure that
          drinking water meets the established standards for approximately 90
          contaminants.

          The drinking water program is largely administered by the States; their programs
          must establish regulations that are at least as stringent as EPA’s and maintain a
          formal enforcement program to ensure violations are addressed and that public
          health is protected. All States and territories, except the District of Columbia and
          Wyoming, have received primacy for most drinking water rules and authority to
          implement and enforce their drinking water programs. EPA Regions 3 and 8 act
          in that capacity for the District of Columbia and Wyoming, respectively.

          SDWA and EPA’s established standards apply to all of the approximately
          154,000 PWSs in the United States. Under SDWA and its regulations, a PWS
          provides water for human consumption through pipes or other constructed
          conveyances to at least 15 service connections, or serves an average of at least
          25 people for at least 60 days a year. The three types of PWSs are shown in
          Table 1-1.



                                            1

                                                                           11-P-0001 



Table 1-1: Types of public water systems

 Public water systems
                                            Supply water to the same population
 Community water systems
                                            year-round
                                            Supply water to at least 25 of the same
 Nontransient noncommunity water systems
                                            people at least 6 months per year
                                            Supply water in a place such as a gas
 Transient noncommunity water systems       station or campground where people do
                                            not remain for long periods of time

Source: EPA OGWDW.

PWSs, which often consist of multiple facilities (e.g., wells, springs, treatment
plants, and retention ponds), must ensure that the drinking water provided to their
customers meets all federal and State standards. PWSs are responsible for
complying with monitoring and reporting requirements, performing treatment
techniques, recordkeeping, and following public notice requirements.

PWSs must periodically monitor for contamination throughout the system (i.e., at
the treatment plant, in the distribution system, and at customer taps). When
monitoring results show that a health-based standard has been exceeded, the water
system must notify all of its customers through available media (newspaper and
radio) or by mail, depending on the seriousness of the violation and any adverse
health effects that may be involved. The water system must also take steps to
correct the problem by treating the water to remove or reduce the contaminant to
safe levels.

A consecutive system is a PWS that receives some or all of its finished water
from one or more wholesale systems. Delivery may be through a direct
connection or through the distribution system of one or more consecutive systems.
Consecutive water systems that purchase their water from another system have
fewer monitoring and reporting requirements because the seller/supplier is usually
responsible for these activities.

State and Federal Drinking Water Information Systems

EPA maintains a federal database, the Safe Drinking Water Information
System/Federal Version (SDWIS/FED), to evaluate the effectiveness of its
programs and regulations and to determine whether new regulations are needed to
protect public health. EPA developed the SDWIS/State Version (SDWIS/State)
to help States run their drinking water programs. Most States use SDWIS/State to
maintain inventory data, monitor results reported by water systems, and track
information about violations and enforcement actions. EPA only requires States
to report inventory data, violations of maximum contaminant levels, enforcement
actions, and lead and copper 90th percentile sample results to SDWIS/FED
quarterly.



                                 2

                                                                         11-P-0001 



Prior EPA Evaluations of SDWIS/FED Data Quality

EPA periodically conducts data verification audits to ensure that States
(1) determine compliance in accordance with federal drinking water regulations,
and (2) properly report data to SDWIS/FED. The data verification audits showed
that a majority of the data are accurate but incomplete, which may primarily be a
result of the different interpretations of the regulations by the States and EPA.
Some violations are unreported by States to EPA and are not entered in the
SDWIS/FED database. In 2006, only 29 percent of monitoring and reporting
violations and 62 percent of the maximum contaminant level/treatment technique
violations (part of the health-based standards) had been reported to SDWIS/FED.

EPA recognizes that the information and the analyses based on incomplete data in
SDWIS/FED compromise its ability to determine whether and when the Agency
should take action against noncompliant systems, to oversee and evaluate the
effectiveness of State and federal programs and regulations, to alleviate burden on
States, and to determine whether new regulations are needed to further protect
public health. Further, EPA’s response to public inquiries and preparing national
reports on the quality of drinking water in a thorough and complete manner is
limited by the incomplete data.

Incidences of Improper Use of Contaminated Emergency Wells

In 2008, the Illinois Environmental Protection Agency (Illinois EPA) discovered
that the Crestwood CWS, serving approximately 11,000 customers, was illegally
using a well contaminated with vinyl chloride to supplement its primary source of
distributed water from Lake Michigan. After Illinois EPA’s triennial monitoring
program uncovered the presence of vinyl chloride in 2007, the agency gave the
Crestwood CWS the option of treating the well, abandoning the well, or obtaining
another source of water. Without treatment and approval by Illinois EPA, the
contaminated well was kept operational by the town for emergency backup
situations. Illinois EPA managers and staff said that State law did not require the
water system to conduct routine sampling of the well water, but did require the
system to report when the well was activated. Crestwood never reported to
Illinois EPA that the well was being used until the water system operator’s
admission in 2008. Illinois EPA investigators verified the illegal use of the well
through a review of billing records against pumping records dating back to at least
1999.

While the finished water (water that is ready for distribution and consumption
without further treatment) distributed to customers met federal and State standards
after blending, the Illinois EPA cited Crestwood for SDWA violations and for
knowingly providing false information about the source of its drinking water to
the Illinois EPA and to its water consumers. An Illinois EPA records analysis
also confirmed that only Lake Michigan water has been used by the Crestwood




                                 3

                                                                                   11-P-0001 



         CWS since November 2007. In March 2009, the Crestwood CWS’s well was
         sealed.

         According to the Agency for Toxic Substances and Disease Registry, similar
         situations occurred in the early 1990s in the U.S. Virgin Islands and Minnesota.
         The water systems each had a ground water well with known contamination and
         knowingly distributed water from these wells, even though health advisories had
         been issued to discontinue use of the wells. The State and territory agencies did
         not discover the use of the contaminated wells until each of the wells had been
         capped for more than 5 years; it is unclear when the water systems began using
         these wells again.

Noteworthy Achievements
         EPA’s OGWDW conducts program reviews of randomly selected State drinking
         water programs, while the Ground Water Rule requires States to conduct onsite
         sanitary surveys of ground water PWSs every 3 to 5 years. OGWDW also issues
         a Water Supply Guidance manual, a useful resource for stakeholders (EPA
         regions, States, and water systems) that clarifies safe drinking water policies and
         regulations implemented under SDWA.

         EPA has started the process of developing a new drinking water strategy, which
         will:

            	 Address contaminants as groups rather than one at a time so that
               enhancement of drinking water protection can be achieved cost
               effectively.
            	 Foster development of new drinking water technologies to address health
               risks posed by a broad array of contaminants.
             Use the authority of multiple statutes to help protect drinking water.
             Partner with States to share more complete data from monitoring at PWSs.

Scope and Methodology
         We conducted this review in accordance with generally accepted government
         auditing standards. Those standards require that we plan and perform the review
         to obtain sufficient, appropriate evidence to provide a reasonable basis for our
         findings and conclusions based on our review objectives. We believe that the
         evidence obtained provides a reasonable basis for our findings and conclusions
         based on our review objective. We performed our review from November 2009
         to August 2010.

         We reviewed the SDWA, EPA policies and guidance, information from Illinois
         EPA regarding the Crestwood contaminated well, and relevant reports by other
         federal agencies. We also reviewed recent data verification audits and program
         reviews for the 17 States located in Regions 3, 5, and 8 for information pertaining


                                          4

                                                                            11-P-0001 



to monitoring and reporting requirements for emergency facilities. We evaluated
agency Websites from those States that are involved in providing safe drinking
water, allocating water resources, and permitting of wells for construction and
abandonment.

We conducted interviews with personnel from EPA in OGWDW, within the
Office of Water; the Office of Civil Enforcement and the Office of Criminal
Enforcement, Forensics and Training, both within the Office of Enforcement and
Compliance Assurance; and EPA Regions 3, 5, and 8. We visited the Illinois,
Delaware, and Colorado State agencies responsible for administering State safe
drinking water programs, as well as one public water supplier serving in
Delaware. During our interviews, we discussed their respective safe drinking
water programs; oversight, monitoring, and tracking requirements for emergency
facilities; sanitary surveys; and the SDWIS/FED and SDWIS/State databases.

We analyzed data pulled from SDWIS/FED by OGWDW for all States in all 10
EPA regions for the period June 1, 1976, to June 30, 2009 (approximately 33
years since the first drinking water compliance period). We specifically requested
inventory and site visit data for all facilities designated for emergency utilization
(Facility Availability Code = E) that are wells or springs (Facility Type Code =
WL (well) or SP (spring)). We analyzed the data to determine the number of
PWSs with facilities designated for emergency utilization in each State, the
categorization of those PWSs and the population served, the number of total
emergency facilities located in each State, the number of active emergency
facilities, the number of total site visits made to emergency facilities in each State,
the predominant reasons for those site visits, and the number of PWSs with
facility names that indicate the facility’s use for emergencies or some other event.

While we did not independently verify the accuracy or reliability of the inventory
data provided by SDWIS/FED, there are known data quality issues with the
database, as discussed in Chapter 2 of this report. We determined the errors to be
insignificant to our overall analysis of emergency ground water facilities.




                                   5

                                                                                                  11-P-0001 





                                         Chapter 2

              EPA Lacks Data to Assess the Risk from 

                 Emergency Facility Water Usage 

                EPA cannot accurately assess the risk of PWSs delivering contaminated drinking
                water from emergency facilities because of limitations in SDWIS data
                management. EPA and State officials we interviewed said they were unaware of
                instances similar to the Crestwood situation. However, they also stated that they
                currently have no way to know whether an emergency facility had been turned on
                without notice. There is no federal regulatory requirement for EPA or States to
                oversee or monitor emergency facilities. As a result, neither EPA nor the States
                know the amount of risk that PWS customers may face from misuse of water from
                emergency facilities.

Consecutive and/or Small Systems More Vulnerable1
                As of October 2009, the SDWIS/FED listed 139,205 PWSs whose primary source
                of water is ground water. Of that number, approximately 5 percent (6,722) have
                at least one active and/or inactive well or spring designated for emergency use
                (see Appendix A, Table A-1). A little over 82 percent of these PWSs serve 3,300
                people or fewer (i.e., small or very small PWSs) (see Appendix A, Table A-2).
                Roughly 58.5 million people get their drinking water from systems with
                emergency facilities and could be potentially impacted if these sources were
                contaminated with pollutants (see Appendix B). EPA regional staff we
                interviewed believed consecutive and/or small systems are most vulnerable to a
                Crestwood-like situation because of economic considerations.

Risk Assessment of Emergency Facilities Precluded by Data
Management Process
                The data management process used by both EPA and States hinders a thorough
                evaluation of the risk posed by emergency facilities. EPA cannot accurately
                assess the risk without knowing the actual universe of these facilities, and
                limitations in the quantity and quality of data reported to SDWIS/FED prevent
                EPA from accurately calculating the universe and assessing the risk. There are no
                federal or generally accepted standards or processes to define and manage
                emergency facilities. States vary in how they define “emergency facility,”
                categorize/manage these facilities, and oversee their use. These State differences
                further challenge EPA’s ability to identify vulnerabilities that may exist.



1
 The estimates in this section are based on the best data available from OGWDW and SDWIS/FED during this
evaluation.


                                                     6

                                                                           11-P-0001 



SDWIS/FED Data Limited

States use their respective drinking water databases, generally SDWIS/State, to
manage the PWSs within the State and to transfer required information to
SDWIS/FED. State drinking water databases contain information that is not
reported to EPA through SDWIS/FED. The facility comment field in
SDWIS/State may hold an explanation for why a well was abandoned or whether
the facility has known contamination, but this is not information States are
required to track in SDWIS/FED. Additionally, in SDWIS/FED, violations are
tied to the water system and are not linked to the individual facility responsible
for the violation. Once a facility is in SDWIS/FED, it is never removed.
However, if a facility is sold to another water system, the facility will receive a
new facility identification number associated with the new water system in
SDWIS/FED. In these instances, SDWIS/FED does not allow for historical
information about the facility to be included in its newly created record associated
with the new water system.

EPA is unable to evaluate the potential impact of the improper classification of
consecutive water systems with mixed source water types. A consecutive PWS
that uses a combination of ground water and purchased surface water defaults to a
“purchased surface water” system in both SDWIS/FED and SDWIS/State. The
databases do not allow consecutive PWSs to indicate the purchased surface water
is supplemented with ground water. As a result, the water system may not meet
the additional monitoring and reporting requirements associated with ground
water sources.

States have used a variety of measures to address the shortcomings in
SDWIS/State. States modify their drinking water databases, develop add-on
tools, or include comments in SDWIS/State to create a thorough database and to
address issues particular to their State and/or region. For example, Colorado
recognizes that SDWIS classifies consecutive water systems that purchase surface
water as “purchased surface water” even though they may have their own ground
water, or may have ground water under the influence of a surface water source.
To address this limitation, monitoring schedules are determined by the water
source type at each individual facility. These types of water systems will have
more extensive monitoring requirements than those systems that solely purchase
fully treated surface water.

State Procedures for SDWIS/State Vary

Different State-level procedures for entering data into SDWIS/State databases
further prevent EPA from forming an accurate estimate of the universe of
emergency facilities. States have their own interpretations and procedures for
indicating a facility’s condition and can change the facility status code (active or
inactive), the facility availability code (emergency, interim, permanent, seasonal,
or other), and the facility name. For example, Illinois EPA changes a facility’s



                                  7

                                                                           11-P-0001 



availability code from “emergency” to “other” once it is properly abandoned and
no longer available for use. For sources no longer used for drinking water
purposes, Colorado changes the facility status to “inactive” and the facility
availability field to “other.” Once the source has been reclassified, the water
system should never use it for drinking water purposes without the Colorado
Water Quality Control Division’s approval. While EPA’s intent is that abandoned
facilities would be classified by States as “inactive” in the SDWIS/State and
SDWIS/FED databases, States interpret “inactive” to mean a variety of statuses,
such as temporarily abandoned or not currently in use. California adds “inactive,”
“abandoned,” or “destroyed” to the facility name, but does not change the facility
status code to “inactive.”

In some States, more than one State agency may be involved in the construction,
monitoring of water allocation/usage, or abandonment of drinking water
emergency facilities, further complicating their management. For example, in
8 of 17 States reviewed from Regions 3, 5, and 8, the permitting, construction,
and/or abandonment of wells are handled by agencies other than the one
responsible for the safe drinking water program. Because of its arid climate,
water use in Colorado is strictly monitored through the Office of State Engineer,
existing “water rights,” and the seven water courts. The State office responsible
for ensuring drinking water quality may not have access to the data and
information managed by these other agencies.

Definitions of Emergency Facility Inconsistent

There is no federal framework or definition for an emergency facility, nor is there
consistency among States on how facilities are designated as “emergency.” EPA
accepts a broad spectrum of State definitions for facility availability codes
(permanent, emergency, interim, seasonal, or other) in SDWIS/FED. States may
refer to emergency wells as backup wells, standby wells, auxiliary wells, or
interim emergency wells. EPA defers to each State’s policy, code, or regulation
for defining and designating emergency facilities. For example, staff and
managers at Illinois EPA said emergency wells in the State should not be used to
supplement peak demand. Staff and managers at Delaware’s Department of
Health and Social Services indicated that the agency allows the intermittent use of
emergency wells during periods of high demand. Emergency facilities in
Colorado should be used only in extreme circumstances, when there is a “need of
quantity” in the case of fire or drought.

Not all emergency facilities are contaminated; some could be activated as needed
by the water system without risk to its customers. Some States encourage or
require water systems to have emergency facilities available for dire or
unexpected situations and contingency planning. Additionally, some emergency
facilities are designated for uses other than providing drinking water to the public,
e.g., firefighting, irrigation, and agriculture.




                                  8

                                                                                   11-P-0001 



          A few States such as Colorado and Pennsylvania have attempted to remove the
          ambiguity and define emergency facility in their drinking water regulations or
          drinking water database manual. Colorado’s Primary Drinking Water Regulations
          include a formal definition for an emergency source or connection. Colorado also
          provides definitions for the availability codes used in SDWIS/State. In 2005,
          Virginia’s Office of Drinking Water issued a memorandum to its staff
          establishing policy for the use of emergency wells, which included routine use,
          activation and deactivation, sampling, notification, and other requirements. The
          Office of Drinking Water also recommends that the facility name for an
          emergency well actually include the term “emergency.”

EPA and States Do Not Know if Emergency Facilities Are Used
Without Notification

          Emergency Facility Monitoring Not Federally Required

          There is no federal regulatory requirement for EPA or States to oversee or
          monitor use of emergency facilities. SDWA only requires water systems to
          monitor the finished water for federal health-based standards. Emergency
          facilities do not have federal monitoring requirements before they are brought
          online. EPA staff in Regions 3 and 5 indicated States have limited resources and
          do not see monitoring emergency facilities, which are not supposed to be
          activated except in emergencies, as a priority. However, States may have their
          own monitoring requirements for these types of facilities.

          EPA and State staff we interviewed believe the drinking water program is based
          on trust and assumes that the water system operator and owner are acting in the
          customers’ best interest. While the drinking water program has preventative
          aspects, the compliance portion is designed to discover problems or violations
          after they have occurred. As a result, if a water system operator or owner is not
          truthful about the utilization of emergency wells, EPA and States lack internal
          controls to detect and prevent the fraud. Based on our Website review, 11 of the
          17 State drinking water programs in Regions 3, 5, and 8 do not appear to routinely
          monitor their emergency facilities.

          State Monitoring of Emergency Facilities Voluntary

          States have the ability to increase their monitoring requirements for emergency
          facilities. Prior to and after the Crestwood incident, Illinois EPA increased
          monitoring requirements for emergency wells. Water systems now must take
          annual samples of all volatile organic compounds, synthetic organic compounds,
          and nitrate/nitrite; triennial samples for radionuclide contaminants and inorganic
          chemicals; and monthly bacteria samples. Such actions could ensure emergency
          facilities meet drinking water standards and identify potential water systems at
          risk in the event of a water crisis.



                                           9

                                                                                                          11-P-0001 



                  Based on our Website review, 9 of the 17 State drinking water programs in
                  Regions 3, 5, and 8 require that PWSs notify them if they use their emergency
                  facilities. However, other than self-reporting, States have little way of knowing if
                  these facilities are used without notification. According to OGWDW managers,
                  sanitary surveys2 conducted by States every 3 to 5 years are an important part of
                  the PWS supervision program.3 Sanitary surveys can also potentially detect
                  whether a facility has been turned on. The sanitary surveyor examines the
                  physical location and condition of all facilities, including unapproved new sources
                  and abandoned sources. According to the analysis of SDWIS/FED data,
                  68 percent of all site visits were to conduct sanitary surveys and occurred on
                  average every 5.3 years. However, sanitary surveys are preannounced, hindering
                  their usefulness for identifying unauthorized use of emergency facilities.

                  Civil Penalties Could Deter Violations

                  Under SDWA, civil penalties can be issued by EPA or States to water systems
                  that fail to meet federal/State monitoring and reporting requirements. States have
                  the ability to increase penalties, which could further discourage operator fraud.
                  Managers and staff from the Colorado Department of Public Health and
                  Environment indicated that the agency has more penalty authority than EPA; it
                  can assess penalties for violations of the Colorado Primary Drinking Water
                  Regulations, while EPA can only assess penalties for violations of formal
                  enforcement orders. After the Crestwood incident, the State of Illinois passed
                  legislation escalating the penalty to a felony offense for water system owners and
                  operators who knowingly provide false information to the State.

Conclusion
                  EPA does not know the total number of contaminated emergency facilities and the
                  scope of their use. EPA and the States do not have common definitions or a
                  common understanding of what constitutes an emergency facility. There is no
                  common understanding of when and how emergency facilities may be used,
                  especially with regard to drinking water. States rely on water systems to self-
                  report when they use these emergency facilities. However, that system is
                  voluntary, based on trust rather than a verifiable control. Consequently, EPA
                  cannot accurately assess the potential risk faced by the 58.5 million people who
                  are served by water systems with emergency facilities (that may or may not be
                  contaminated with pollutants). In our opinion, EPA should assess the risk and
                  determine whether it needs to take steps to mitigate it.


2
  During a sanitary survey, the State evaluates the water system in eight elements, including reviewing the major
components of the source to determine reliability, quality, quantity, and vulnerability, and determining/evaluating
data that define the potential for degradation of the source water quality.
3
  EPA’s Public Water System Supervision Grant Program helps eligible States develop and implement a PWS
supervision program adequate to enforce the requirements of SDWA and ensure water systems comply with the
National Primary Drinking Water Regulations.


                                                         10 

                                                                                      11-P-0001 



Recommendations
         We recommend that the Assistant Administrator for Water:

         2-1	 Develop standard definitions for the five facility availability codes
              (permanent, seasonal, emergency, interim, and other).

         2-2	 Develop standard operating procedures that follow EPA reporting
              requirements to assist the States with entering data into SDWIS/State
              databases.

         2-3	 Review the additional information included in State drinking water databases
              and, if appropriate, add fields to SDWIS/FED to improve the oversight of
              emergency facilities.

         2-4	 Assess the risk associated with the unauthorized use of emergency facilities
              and, if necessary, develop controls to mitigate that risk.

Agency Response and OIG Evaluation
         The Assistant Administrator for Water responded to our draft report on
         September 16, 2010 (see Appendix C). EPA’s goal is to ensure that every
         American served by a PWS receives water that meets public health standards
         every day. The Agency believes its approach to protecting the nation’s drinking
         water through the efforts of PWSs and state, local, and federal government
         agencies has been effective. This approach includes States (with the exception of
         Wyoming) providing primary oversight of PWSs, water systems taking millions
         of samples each year to ensure water meets health standards, States and EPA
         conducting sanitary surveys and other site inspections to supplement monitoring
         and identify potential issues of concern, and EPA conducting regular reviews of
         state drinking water programs.

         EPA neither agreed nor disagreed with our recommendations. It acknowledged
         our concerns related to recommendations 2-1, 2-2, and 2-3. EPA has already
         begun and will continue discussions with the Association of State Drinking Water
         Administrators (ASDWA) on these and other data issues. For recommendation
         2-3, EPA will also request that the EPA-State Data Technical Advisory
         Committee review the SDWIS/FED data fields to determine whether further
         changes would be useful in providing oversight of emergency facilities. Based on
         discussions with ASDWA and the EPA-State Data Technical Advisory
         Committee, EPA will take action as determined to be appropriate.

         In response recommendation 2-4, EPA raised concerns about the challenges
         associated with assessing health risk from emergency wells, since risk assumes
         exposure to a contaminant. EPA will discuss the risk associated with
         unauthorized use of emergency facilities with State representatives. We


                                          11 

                                                                          11-P-0001 



recognize these challenges and must stress that our focus has been on the risk of
an occurrence similar to the situation in Crestwood, Illinois. We advocate
avoiding these situations through internal controls and increased oversight.

We consider all of the recommendations to be open. We look forward to a
detailed corrective actions plan in the Agency’s 90-day response to this final
report.




                                 12 

                                                                                                                                        11-P-0001



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                           Subject                        Status1         Action Official           Date      Amount      Amount

    2-1      11     Develop standard definitions for the five facility      O          Assistant Administrator
                    availability codes (permanent, seasonal,                                  for Water
                    emergency, interim, and other).

    2-2       11    Develop standard operating procedures that follow       O          Assistant Administrator
                    EPA reporting requirements to assist the States                           for Water
                    with entering data into SDWIS/State databases.

    2-3      11     Review the additional information included in State     O          Assistant Administrator
                    drinking water databases and, if appropriate, add                         for Water
                    fields to SDWIS/FED to improve the oversight of
                    emergency facilities.

    2-4       11    Assess the risk associated with the unauthorized        O          Assistant Administrator
                    use of emergency facilities and, if necessary,                            for Water
                    develop controls to mitigate that risk.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                13 

                                                                                              11-P-0001


                                                                                          Appendix A

       Distribution of PWSs with Emergency Facilities

Table A-1: Distribution of public water systems with emergency facilities (wells and springs),
by water system type (includes tribal systems)
                                                     Nontransient                 Transient
                         Community water          noncommunity water         noncommunity water
    EPA region              system                     system                      system
          1                            283                          63                        111
          2                            563                          84                        272
          3                            329                          68                        152
          4                            363                          25                         48
          5                            710                          55                        105
          6                            644                          66                         51
          7                            657                          42                         68
          8                            503                          38                        100
          9                            569                        101                          78
          10                           411                          66                         97
  Total (N = 6,722)                  5,032                        608                       1,082
  Total Percentage                   74.86                        9.04                      16.10
Source: OIG analysis of SDWIS/FED data as of June 30, 2009, provided by OGWDW.




Table A-2: Distribution of public water systems with emergency facilities (wells and springs),
by population-served classifications (includes tribal systems)
                                    Small            Medium               Large          Very large
 EPA region      Very small        (>500 and        (>3,300 and        (>10,000 and      (>100,000
                (≤500 people)    ≤3,300 people)   ≤10,000 people)    ≤100,000 people)     people)
      1                   319                83                20                  32              3
      2                   622               180                46                  58             13
      3                   364               124                27                  28              6
      4                   213               125                50                  43              5
      5                   384               258               100                 121              7
      6                   279               287               102                  83             10
      7                   394               273                64                  32              4
      8                   420               168                37                  14              2
      9                   411               120                67                 117             33
     10                   386               111                29                  42              6
    Total
 (N = 6,722)            3,792             1,729               542                 570             89
    Total
 Percentage             56.41             25.72               8.06                8.48          1.32
Source: OIG analysis of SDWIS/FED data as of June 30, 2009, provided by OGWDW.




                                                   14 

                                                                                                             11-P-0001


                                                                                                        Appendix B

         Site Visits to PWSs with Emergency Facilities
Table B-1: Number of public water systems with emergency facilities (wells and springs) and
site visits (includes tribal systems)
                              Population
                  # of PWSs    served by                                                               Ratio of site
                     with     PWSs with       # of total     # of active   % of active                  visits to
                  emergency   emergency      emergency       emergency     emergency     # of total    emergency
     EPA Region      wells      facilities      wells           wells        wells       site visits      wells
 Region 1
 Connecticut             68     1,253,149           127              46         36.22           378            2.98
 Massachusetts           80       689,905           104             104        100.00         1,045           10.05
 Maine                  117        68,496           136              28         20.59         2,167           15.93
 New Hampshire           51        17,691            56              32         57.14           124            2.21
 Rhode Island             0             0             0               0          0.00             0            0.00
 Vermont                141       100,006           203               4          1.97         1,877            9.25
 Region 2
 New Jersey             119     2,484,913           150             126         84.00          954             6.36
 New York               788     9,411,991          1802             451         25.03       13,536             7.51
 Puerto Rico             12     1,716,029            47              47        100.00        1,303            27.72
 Region 31
 Delaware                74       383,622           102              69         67.65           678            6.65
 Maryland                 8        11,205             8               8        100.00           111           13.88
 Pennsylvania           339       586,861           410             410        100.00           995            2.43
 Virginia                90     1,193,353           139              71         51.08         2,058           14.81
 West Virginia           38       104,208            54              31         57.41           527            9.76
 Region 4
 Alabama                 10        70,211            10               6         60.00           291           29.10
 Florida                  0             0             0               0          0.00             0            0.00
 Georgia                223     1,272,225           293             229         78.16           841            2.87
 Kentucky                 2        22,091             3               3        100.00            83           27.67
 Mississippi             13        39,832            18               6         33.33           298           16.56
 North Carolina          80       452,265           180             157         87.22         7,135           39.64
 South Carolina          85       697,725           146             142         97.26         2,927           20.05
 Tennessee               22       135,634            31               6         19.35           832           26.84
 Tribal Nations           1           500             1               1        100.00            17           17.00
 Region 5
 Illinois               242     2,459,898           453             419         92.49         7,887           17.41
 Indiana                 19       115,597            25              17         68.00           345           13.80
 Michigan                44       317,233            76              63         82.89           186            2.45
 Minnesota              427     1,397,777           550             414         75.27         6,130           11.15
 Ohio                    30       229,647            46              34         73.91           529           11.50
 Wisconsin              107       735,302           152              93         61.18         1,945           12.80
 Tribal Nations           1         1,997             2               2        100.00             4            2.00
 Region 6
 Arkansas                65       260,577            86              45         52.33           343            3.99
 Louisiana               70       383,183            94              55         58.51           379            4.03
 New Mexico              80       397,850            98              24         24.49         1,210           12.35
 Oklahoma                72       485,926           157              52         33.12         4,244           27.03
 Texas                  458     7,408,609           786             146         18.58         5,572            7.09
 Tribal Nations          16        60,880            26              20         76.92            79            3.04




                                                           15 

                                                                                                                     11-P-0001


Table B-1: Number of public water systems with emergency facilities (wells and springs) and
site visits (includes tribal systems) – Continued
                                    Population
                     # of PWSs      Served by                                                                  Ratio of site
                        with        PWSs with       # of total     # of active    % of active                   visits to
                     emergency      emergency      emergency       emergency      emergency      # of total    emergency
      EPA Region        wells        facilities       wells           wells         wells        site visits      wells
    Region 7
    Iowa                     279        569,297             337              6           1.78          1,956           5.80
    Kansas                   154        492,075             277              1           0.36          2,354           8.50
    Missouri                 164        627,962             213            198          92.96          2,126           9.98
    Nebraska                 170        803,543             247            154          62.35          2,942          11.91
    Region 8
    Colorado                 173        894,037             240            183          76.25            891           3.71
    Montana                   81         49,292              91             26          28.57            289           3.18
    North Dakota             124        110,387             231            165          71.43          3,155          13.66
    South Dakota             234        419,465             376              0           0.00          2,449           6.51
    Utah                       3          9,119               4              1          25.00             26           6.50
    Wyoming                   20         10,968              23              9          39.13            152           6.61
    Tribal Nations             6         14,940               8              2          25.00             60           7.50
    Region 9
    Arizona                   40        818,503              62             46          74.19            820          13.23
    California               689     14,620,139           1,104            936          84.78          9,476           8.58
    Hawaii                     6        743,747              10             10         100.00             89           8.90
    Navajo Nation              4          2,820               4              4         100.00             14           3.50
    Nevada                     8         46,448               8              4          50.00             41           5.13
    Tribal Nations             1            819               1              1         100.00             10          10.00
    Region 10
    Alaska                    17        279,577              45             15          33.33            323            7.18
    Idaho                    212        702,406             298            185          62.08          2,351            7.89
    Oregon                   302      1,499,658             433             14           3.23          1,091            2.52
    Washington                29        848,785              77             47          61.04             77            1.00
    Tribal Nations            14         16,155              28             27          96.43             38            1.36
    Total
                           6,722     58,546,530         10,688           5,395          50.48         97,760            9.15

Source: OIG analysis of SDWIS/FED data as of June 30, 2009, provided by OGWDW.

1
The District of Columbia is not included because water systems do not have ground water facilities.




                                                                 16 

                                                                                         11-P-0001 



                                                                                     Appendix C

                                 Agency Response

                                       September 16, 2010

MEMORANDUM

SUBJECT:       Comments on OIG's Draft Evaluation Report: EPA Lacks Internal Controls to
               Prevent Misuse of Emergency Drinking Water Facilities
               Project 2010-1069

FROM:          Peter S. Silva
               Assistant Administrator

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluation

         Thank you for your draft report on emergency drinking water facilities. The Agency's
goal is that every American served by a public water system receives water that meets public
health standards every day. We welcome recommendations on how to ensure that this becomes a
reality.

        The nation's drinking water is protected by the efforts of a network of public water
systems and state, local, and federal government agencies. All states except Wyoming have
primacy for the drinking water program, and provide the primary oversight of water systems.
Millions of samples are taken each year by water systems to ensure that the water received by
consumers meets public health standards. In addition, state and EPA drinking water programs
conduct sanitary surveys and other site inspections of water systems to supplement monitoring
records and identify potential issues of concern. EPA regulations require states to regularly
conduct these sanitary surveys at all water systems in the country, and many states visit water
systems more frequently than required. These efforts provide states with a good understanding of
the water system. EPA conducts regular reviews of the state programs to ensure that states are
meeting their Safe Drinking Water Act requirements. We believe that this approach has been
effective.

        Your report recommends that EPA develop standard definitions for the five facility
availability codes, develop standard operating procedures to assist the states with entering data
into SDWIS-State databases, and determine whether additional fields are needed in the federal
version of SDWIS to improve the oversight of emergency facilities. EPA has already begun
discussions with the Association of State Drinking Water Administrators (ASDWA) on these
data issues and others, and we will continue this dialogue. Additionally, we will request that the
EPA-State Data Technical Advisory Committee review the SDWIS-Fed data fields to determine
whether further changes would be useful in providing oversight of emergency facilities. EPA
will then take action as determined to be appropriate through these discussions.


                                                17 

                                                                                        11-P-0001 



        Your final recommendation is for EPA to assess the risk associated with the unauthorized
use of emergency facilities and, if necessary, develop controls to mitigate that risk. While we
will discuss these issues with state representatives, it will be very challenging to assess health
risk from emergency wells since risk assumes exposure to a contaminant. In some states,
supplies classified as "emergency" meet all SDWA requirements and are classified as
"emergency" due to practical difficulties in using the source or are considered reserve source
capacity. In other cases where a contaminant may be present, states may have conditional
requirements (treatment, blending, etc.) associated with use of these sources. Since these sources
are not used except in emergency situations and may not have contamination present or may be
treated prior to use, we would have difficulty making exposure estimates even with an accurate
inventory.

       Again, we appreciate you sharing your draft report for our review and comment, and look
forward to our continuing collaboration in the future. If you have any questions, please contact
me or Cynthia Dougherty, Director of the Office of Ground Water and Drinking Water, at (202)
564-3750.




                                                18 

                                                                                     11-P-0001


                                                                              Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator, Office of Water
Principal Deputy Assistant Administrator, Office of Water
Deputy Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water, Office of Water
Acting Deputy Director, Office of Ground Water and Drinking Water, Office of Water
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Water
Inspector General




                                            19 

